Appendix

APPENDIX
TABLE OF CONTENTS

Appendix A

Appendix B

Final Order Denying the Second Amended
Petition for Writ of Mandamus/Phase 2
entered January 21, 2020......................

App. 1

Per Curiam Affirmed (PCA) Order of the
Florida Second District Court of Appeals
entered March 10, 2021............................

App. 12

Appendix C

Order Denying the Petition for Rehearing, Rehearing
En Banc, Written Opinion, and Certification
of Important Question(s) to the Florida Supreme
Court by the Florida Second District Court
App. 13
of Appeals entered April 21, 2021

Appendix D

Order Denying the Second Amended Petition
in Part for Writ of Mandamus/Phase 1
entered January 11, 2019.....................

App. 14

Order Denying Certiorari Review of
January 11, 2019 Phase 1 Order by
Florida Supreme Court on the basis of
Jurisdiction / Appeal Interlocutory
entered May 21, 2019............................

App. 33

Alternative Writ
finding Petitioner’s Writ facially sufficient
entered June 25, 2015.................................

App. 34

Appendix G

Second Amended Petition for Writ of Mandamus

App. 36

Appendix H

Motion for Summary Judgment Proceeding Excerpt
on January 10, 2018 denying MSJ in chambers....... App. 62
Order denying Motion for Summary Judgment
entered on February 9, 2018....................................... App. 78

Appendix E

Appendix F

Appendix I

Evidence filed in Support Petition
1. Eleven (11) requests were at issue
Appendix Final Order, ftn. 6
Second Amended Petition....
Public record requests..........

,App. 3
App. 42-57
..App. 79

2. IT and high-cost clerical assistance not
required to search / redact agency records
at issue.
Expert Opinion. Microsoft Office Outlook
Microsoft Outlook Search does not require IT.
A search of over 100,000 records with similar
criteria used by Respondent can be completed
by end-users, without IT, in less than 5 seconds.
Lisa Hendrickson, Call That Girl.........................
Keith Samsell, former Assoc. Dir. Systems, USF

App. 92
App. 99

Notarized Opinion. Records Management Expert
37 Hours and less than $4000 in expense to
Segregate and redact 2,735 emails
Jeffery Cohn, Business Records Management, Inc.....App. 94
3. Respondents understood the agency’s duty
to provide nonexempt agency records
8/14/2015 Deposition of Dr. Paul Dosal
Designation 10: 1-18..............................

.App. 130

4. Agency records existed for request #1
8/14/15 Deposition Excerpt of Paul Dosal
Dosal testified he met with Ms. DeBose on
6/23/2014 to discuss a troubling email
that he received............................................
Designation pg. 22: 25.................................
Designation pg. 23: 1-2................................
Designation pg. 25: 1-8................................

.App. 154
App. 131
.App. 132
.App. 133

Ms. DeBose stated that she was
-aware ofThe existence of"the email'
Designation pg. 26: 4-11.................

App. 134

Dosal provided the email for request #1
when he asked to produce it by Respondent
Designation pg. 50: 4-8; 22-23......................

App. 136

There were other emails for request #1 that
Dosal decided not provide to Ms. DeBose
Designation pg. 46: 7-12, 21-23....................

App. 135

Dosal was instructed not to answer by
USFBOT’s attorney if Ms. DeBose
asked him personally for his emails
Designation............................ ;............

App. 179

11/2/2018 Evidentiary Hearing
Dosal identified the email he provided for request #1
App. 142
Designation pg. 35:1-25
The Circuit Court conceded the email was not
produced until one year later based on Dosal’s
testimony
Designation pg. 38:19-25....................................

App. 143

Dosal testified that he provided the email for
request #1 to Gerard Solis, USF General Counsel
in mid-March 2015
App. 144
Designation pgs. 42:1-11; 43:1-25; 44-1-3
Respondent did not provide any email to Ms.
DeBose for request #1 until 6/19/2015, after
the Petitioner again requested the email.
Respondent sought to reset the date of the
Request #1 to 6/15/2015, in bad faith............
Petitioner’s second request for the email on
06/15/2015 referred back to her original
request for the agency record to Dosal on
6/23/2014........................................................

App. 153

App. 79

11/16/2016 Deposition of Paul Dosal
asked him for a copy of the email at issue
for request #1 and that he refused
Designation 46: 2-9.....................................

App. 140

8/14/2015 Deposition Excerpt of Robert (“Bob”) Sullins
Respondent initially claimed the significant
one-year delay in providing the email(s) for
request #1 was because the search required
IT assistance. Sullins, the custodian/sender
of the email testified that the search was not
difficult, that he searched Outlook himself
and that he found the email without IT
.App. 122
Designation pg. 16: 18-25; 17: 1-3
5. Agency records existed for request #4 but were not
produced by USFBOT until 398 days later
Respondent’s charge document for request #4
Estimated 2,735 emails on September 3, 2015

App. 156

Respondent waived the fee did not withhold
records for request #4 on the basis of FERPA
Respondent redacted student names, waived
the redaction fee, and provided agency records,
making the statement that Petitioner
agreed to “safeguard the FERPA records” that
inadvertently remained......................................

App. 104

Respondent used an improper Search Cut-off Date
4/22/2015 email from Gerard Solis, USF General
Counsel, produced records through March 27, 2015
for request #4. The Respondent did not provide
emails on 4/22/2015 but instead delayed until
September 3, 2015....................................................... App. 155
9/13/2015 email from Gerard Solis, USF General
Counsel, produced records through March 27, 2015
for request #4. The Respondent did not provide
emails up to the “present” date, or system date that
the file was produced of September 3, 2015, but instead
App. 103
cut-off emails in March, April, and May of 2015

Petitioner filed Deficiency Notice to Respondent
Retitioner-filed-9/-14/20-15-nQtice_that_agency___
records produced in response to request #4 were
deficient..................................................................

App. 171

Expert Affidavit of Chervl Harris. Trinity Consulting Svcs.
Only 29 emails produced for March 2015 and
the agency records were repeated with 65-70%
App. 97
duplication
6/22/2018 Evidentiary Hearing
The Circuit Court determined the cut-off date
should have been through May of 2015
Designation pg. 124: 20-25...............

App. 109

Evidentiary Hearing. 11/2/2019
The Respondent knowingly excluded emails that
existed that contained derogatory language
about Ms. DeBose
...... App. 145
Designation pgs. 55:17-25; 56:1-4 ....
6. Agency record(s) for request #5 existed but were not
produced
9/3/2015 Deposition of Caurie Waddell
Caurie Waddell met with HR for an
Employment Exit Interview
Designation pg. 14: 10-13

App. 126

5/21/2019 Evidentiary Hearing
USFBOT initially denied but was forced to
admit on the record to the Court that
Caurie Waddell met with HR for an
Employment Exit Interview
Designation pg. 19:7-23................................

App. 152

Affidavit of Gerard Solis. USF General Counsel
Solis attested that exit interviews are expected
to be kept in the employee’s file in HR
H 11........................................................................ App. 106
7. Telephone records existed for request #6 but
Respondent misrepresented that no such
agency records existed

'1

'j;

*

j
•>
A

A

\
j

S

were considered transitory and had been
deleted / purged
Affidavit of Gerard Solis, T[7..... ...............
8/25/2015 Email of Gerard Solis...............

App. 106
.App. 160

The Respondent omitted the fact that
phone records must be kept if litigation
is anticipated or if there is an employment
dispute....................................................77”.

App. 159-60

The Respondent’s employee, Gerard Solis,
had actual knowledge of an employment
dispute and/or the potential for litigation
PRR #6 (phone calls in June 2014)............
Email from Dosal on August 14, 2014......

.App. 85
.App. 166

■1

1

A

A

-ii

5/22/2019 Evidentiary Hearing
The Respondent misrepresented the search
conducted for two phone numbers provided
by Petitioner................................................... .App. 172-73
5;

f-

Affidavit of Gerard Solis
H 12

App. 106

Testimony of Nora Santiago. USF IT-Central Admin.
Request #6
Only two numbers were searched—4-1680
and 4-2131 belonging to Gerard Solis and the
General Counsel’s Office
..... App. 177
Designation pg. 22: 15-18
.....App. 173
Designation pg. 23: 6-7....
The numbers provided by DeBose were not
searched.
Designation pg. 27: 5-10..... .........................

App. 113

Respondent falsely claimed the phone records
requested for #6 were deleted in 2014/2015
.App. 114
Designation pg. 29: 18-24
The Respondent misrepresented that no
records existed for request #6, though a

'!

^

nf>v-rf^ords-exi-sted_forJReauest #10 but were not
provided. Ms. DeBose challenged the redaction
charges, requesting supervised inspection. Ms.
DeBose also requested waiver of the FOIA fee and
agreed to safeguard any FERPA records, as she did
concerning request #4, but Respondent refused.
Charge Document

App. 168

Email from Petitioner offering supervised
inspection....................................................

App. 169

11.Agency records for Request #11 existed but were not
provided. Petitioner told to get them from contractor,
Ellucian, L.P.
Request #11

App. 91

11/2/2018 Evidentiary Hearing
Records were provided to third party LaVonne
“Sarati” Washington but not Petitioner
App. 146
Designation pg. 301
App.
147
Designation pg. 303
Records were provided to third party Tony
Embry but not Petitioner
Designation pg. 323...................................... App. 148
Designation pg. 329...................................... App. 149
Designation pg. 327:20-25; 328:1-17.......... .App. 149

Appendix A

Petition App. 1

IN THE CIRCUIT COURT OF THE THIRTEENTH JUDICIAL CIRCUIT
------------------ HILLSBOROUGH.COUNTY, FLORIDA____________
CIVIL DIVISION
ANGELA DEBOSE,
Petitioner/Plaintiff,
v.

CASE NO.: 15-CA-005663
DIVISION: C

UNIVERSITY OF SOUTH FLORIDA
BOARD OF TRUSTEES, UNIVERSITY
OF SOUTH FLORIDA ACADEMIC AFFAIRS
OF USF, STUDENT SUCCESS OF USF,
and PAUL DOSAL,
Respondent/Defendant.

K3

ft

urn

CO
♦•

I

'*1

“1
O; —

7°

FINAL ORDER DENYING
rSECOND AMENDED PETITION FOR WRIT OF MANDAMUS

O

ro

a>

- . r •:

da
•• *.
C3

C7-

THIS CASE last came before the Court on November 15,2019, for the final segment of
the final evidentiary hearing on Petitioner, ANGELA DEBOSE's (“Petitioner”) Second Amended
Petition for Writ of Mandamus and for Violation of the Florida Public Records Law and Relief
Pursuant to Article 1, Section 24 of the Florida Constitution and Chapter 119 and Chapter 86,
filed on June 30, 2018 (“Second Amended Petition” or “Petition”), against Respondents,
UNIVERSITY OF SOUTH FLORIDA BOARD OF TRUSTEES (“USF”), UNIVERSITY OF
SOUTH FLORIDA ACADEMIC AFFAIRS OF USF (“USF AF”), STUDENT SUCCESS OF USF
(“USF SS”), and PAUL DOSAL (“Dosal”) (USF, USF AF, and USF SS sometimes may be referred
to hereinafter collectively as “USF”). USF filed a Response to Second Amended Petitionfor Writ of
Mandamus on July 20,2018.
This case involves a variety of Public Records Requests (“PRR”) made by Petitioner on
USF directly or through various USF employees and her corresponding allegations that USF did
not comply with its obligations under the Public Records Law found in Chapter 119, Florida
Statutes. A multitude of evidentiary hearings were devoted to the initially filed petition and
subsequently filed amendments. Those hearing dates (and the approximate length of each hearing)
included March 2, 2018 (nearly four hours), June 28, 2018 (nearly six hours), October 9, 2018
(nearly six hours), November 2,2018 (nearly eight hours), April 3,2019 (nearly three hours), May
21,2019 (nearly one hour), May 22,2019 (nearly two hours), and November 15,2019 (nearly one
hour). After eight separate hearing dates devoted to the evidentiary hearing on Petitioner’s initial
petition, amended petition, and Second Amended Petition, and more than thirty hours of combined
evidentiary hearing time over the course of this case, the final segment of the final evidentiary
hearing was held on November 15,2019. Petitioner and counsel for USF were present at the March
2, 2018, June 28, 2018, October 9, 2018, November 2, 2018, April 3, 2019, May 21, 2019, and

Page 1 of 11

Petition App. 2
May 22, 2019, hearings. Petitioner declined and failed to appear at the November 15, 2019,
4>f»rir>grhr>weverT.and-onlycounsel for USF appeared.1_____________________
To again provide the parties one final opportunity to present argument to the Court, if they
so desired, the Court entered an Order on the Procedure and Deadlines for Submitting Proposed
Orders on Petitioner’s Amended Petitionfor Writ ofMandamus on December 4,2019. That order
provided the parties until December 13,2019, to submit to the Court for consideration, if they so
choose, written closing arguments, as well as written findings of feet and conclusions of law. On
December 13,2019, Petitioner filed Closing Argument and USF filed Respondent USF Board of
Trustees ’ Closing Argument. That same day, USF also submitted to the Court viaits divisional
email address, with copy to Petitioner, Respondent’s Proposed Findings ofFact and Conclusions
of Law. On December 14, 2019, Petitioner filed Petitioner’s Proposed Findings of Fact and
Conclusions of Law?
The Court has reviewed the voluminous record, including the transcripts of the several
evidentiary hearings, as well as the testimony and documentary evidence presented by the parties;
has considered the argument of Petitioner and counsel for USF; and has considered the applicab
case law, statutes, and rules of procedure. With regard to the testimony of the witnesses presented,
the Court observed the demeanor of each witness and assessed the credibility of each witness.
Given the forgoing, the Court makes the following findings of fact and conclusions of law;
Relevant Procedural History
The Court finds it unnecessary to recite the entire, quite voluminous procedural history of
this case. In relevant part, the Court notes that the operative pleating is the Second Amended

issues presented in the Petition were to be bifurcated. On October 9,2018, the Court wotid conduct
an evidentiary hearing to address the reasonableness of fees charged in response to Petitioner

• The Court notes that after having all other efforts to delay or cancel the final evidentiary hearing m
Petitioner chose to voluntarily absent herself from the final evidentiaiy heanng^ich washeldas scheduled
on November 15,2019. At the beginning ofthe November 15,2019, hearing, the Court undertook additional
efforts to offer Petitioner the opportunity to appear telephonically at the final evidentiary hearing by
attempting to reach Petitioner on the telephone in open court. However, after
,of Petf°nff kn°wn
telephonenumbers, and receiving no response from Petitioner, the hearing proceeded as scheduled.
» The Court notes that despite having announced in open court ^

}| ,2019,

among other veiled complaints regarding the November 15,2019, hearing and the Court s overall handling
of the proceedings. That request was denied on December 11,2019.
3 The Court additionally notes that both parties, with copies to each other, also submitted via emailtothe
Court’s divisional email its closing arguments and proposed orders. A copy of the hearing transcripts was
also hand-delivered to the Court’s chambers.

Page 2 of11

Petition App. 3
Public Records Requested But Not Provided (“PRRBNP”) Numbers 5-14 and 21.4 Thereafter, on
JJovember.2. 2018. the Court would conduct an evidentiary hearing to address the remaining
disputed issues, specifically PRRBNP Numbers 1 through 4,15 through 20,22, and 25.
Following the October 9,2018, hearing on die reasonableness of fees, on January 11,2019,
the Court entered an Order Denying Second Amended Petition, In Part. That order addressed the
bifurcated issue of the reasonableness of charges for producing documents in response to various
public records requests made by Petitioner to USF. Among the other findings of fact and
conclusions of law in that order, notably, the Court found that the total estimated costs of
duplication, processing, labor, and production reflected in four separate charge documents were
reasonable. Therefore, because Petitioner had not paid the reasonable costs associated with
obtaining the documents she requested, the Court denied Petitioner’s Second Amended Petition in
part, as to PRRBNP Numbers 5 through 14, and 21 (otherwise identified as the August 12,2015,
PRR; the August 16,2015, PRR; and the August 31,2015, PRR). As a result of the Court’s January
11,2019, order, the remaining PRRBNPs to be addressed included 1 through 4,15 through 20,22,
and 23.
The remaining PRRBNPs have been addressed over the course of multiple evidentiary
hearings on March 2,2018, June 28,2018, November 2,2018, April 3,2019, May 21,2019, May
22,2019, and November 15,2019. The final segment of the evidentiary hearing in this matter was
held on November 15, 2019. This order follows to address the remaining PRRBNP Numbers 1
through 4,15 through 20,22, and 23.
Findings ofFact
There is no dispute that USF is a state agency subject to Chapter 119, Florida Statutes.5
The Court will address each of the remaining Public Records Requested But Not Provided below.
Public Records Requested But Not Provided No. 1
Public Records Requested But Not Provided No. 1 seeks “[a]ny and all Paul Dosal’s emails
for the months of March, April, and May of 2015.” PRRBNP No. 1 corresponds to PRR No. 4,
which was an August 8,2014, “Internal Memorandum” from Petitioner to Rhonda Ferreli-Pierce,
Equal Opportunity Consultant.6 PRR No. 4 requested that “[pjursuant to the complaint [Petitioner
has] filed, [Petitioner requests] Paul Dosal, Vice Provost, provide to [Petitioner] all email he has

4 The Court notes that the numbering for each request follows that which was provided in Petitioner’s
January 17, 2018, Notice of Filing of the List of Public Records Requested But Responses Not Provided.
That document lists 21 Public Records Requested But Not Provided (“PRRBNP”) that Petitioner claimed
were at issue. On March 8,2018, Petitioner filed a Notice ofFiling of the Amended List ofPublic Records
Requested But Responses Not Provided, (emphasis added). This document added one additional request—
PRRBNP 22.
3 USF did dispute and assert an affirmative defease contending USF AF, USF SS, and Dosal are not an
“agency” within the meaning of Chapter 119, Florida Statutes. The Court agrees with this legal contention.
6 The eleven Public Records Requests at issue in this case were introduced into evidence as Petitioner’s
Exhibit 54.

Page 3 of 11

Petition App. 4
in his possession of or concerning me from July 2013 to present, to which [Petitioner] was not
oopied^----------- ------------------------------------------------------------------------------------With respect to PRRBNP No. 1, the Court first finds that the Internal Memorandum was
not styled as a public records request under Chapter 119, but rather was submitted M[p]ursuant to
the complaint [Petitioner] filed.” Be that as it may, the Court further finds that the testimony of
Gerard Solis (“Solis”), USF’s General Counsel, revealed that USF could not produce the requested
documents during the pendency of the internal investigation regarding Petitioner’s discrimination
complaint. T. 11/2/18 p. 288; see also § 119.071(2Xg), (k), Fla. Stat. (2007). Petitioner’s PRRNo.
4 came to Solis’ attention in March of 2015, after Petitioner had already filed a federal lawsuit
against USF related to her discrimination claims. T. 11/2/18 p. 238-39,286. Because Petitioner s
PRR No. 4 requested documents from July 2013 to “present,” Solis explained that the date of
March 27 2015, was used to define the term “present.” T. 11/2/18 p. 288-89. Based on that date
range, a Charge Document for PRR No. 4 in the amount of $4,726.00 was sent to Petitioner on
April 22.2015.7 USF Exhibit 13. Petitioner never paid the charges associated with PRRNo. 4. T.
11/2/18 p. 291.

j

Solis further testified that during his deposition in September 2015, USF learned that
Petitioner would accept the results of a keyword search of her name rather than requiring USF to
undertake a search of all emails “concerning her.” T. 11/2/18 p. 291. Petitioner served as USF s
Registrar during the majority of the time period covered by the request Thus, she likely would
have been included or copied in a great number of emails (i.e., regarding students) totally unrelated
to the reasons and purpose for which Petitioner was making the request. USF subsequently
provided responsive emails to Petitioner on September 10, 2015. USF Exhibit 43. Given the
forgoing, the Court finds that after receiving Petitioner’s PRR No. 4, USF presented Petitioner
with a Charge Document which Petitioner needed to pay in order to obtain copies of the requested,
responsive documents. However, Petitioner chose not to pay the charged amount. See FJ* Agency
for Health Care Admin, v. Zuckerman Spaeder, LLC, 221 So.3d 1260,1264 (Fla. 1st DCA 2017)
(“A person who has not paid for the cost of production is not entitled to mandamus relief in a
public records request”). Sometime later, after learning that Petitioner would accept a narrowed,
keyword search, USF produced such responsive documents. As such, the Court finds no
unjustifiable delay by USF in producing the public records that were requested. See Promenade
D’Iberville, LLCv. Sundy, 145 So. 3d 980,983 (Fla. 1stDCA 2014) ^Unjustified^ in making
non-exempt public records available violates Florida’s public records law.”) (emphasis m
original). The Court finds Petitioner is not entitled to mandamus relief with respect to PRRBNP
No. 1.
Public Records Requested But Not Provided No. 2
Public Records Requested But Not Provided No. 2 seeks “[a]ny and all documents (emails,
letter, memoranda, etc.) from January 2014 to June 2015 that refer to Angela DeBose the plaintiff
in this action, in a derogatory manner, where derogatory means hurtful, harmful, offensive,
degrading, insulting way.”
No evidence was presented that Petitioner ever made a public records request seeking the
records articulated in PRRBNP No. 2. Further, there was no evidence presented that USF received
any such request, or that such records even exist. Therefore, given the testimony and evidence
7 The Court notes that it already determined that amounts charged associated with Petitioner’s requests were
reasonable. See January 11,2019, order.
Page 4 of 11

Petition App. 5
adduced at the evidentiary hearings, the Court finds that Petitioner has failed to meet her burden
rppardinp the documents requested in PRRBNP No. 2. See O’Boyle v. Town of Gulf
Stream, 257 So. 3d 1036,1040 (Fla. 4th DCA 20i8)T,Tdsetforthacauseofactionunder-theAct,a party must ‘prove they made a specific request for public records, the [state agency] received it,
the requested public records exist, and the [state agency] improperly refused to produce them in a
timely manner1”) (quoting Grapski v. City ofAlachua, 31 So. 3d 193,196 (Fla. 1st DCA 2010)).
Die Court finds Petitioner is not entitled to mandamus relief with respect to PRRBNP No. 2.
Public Records Requested But Not Provided No. 3
Public Records Requested But Not Provided No. 3 seeks “[a]ny and all documents (emails,
letter, memoranda, etc.) from January 2014 to June 2015 that use racial/gender (i.e. racial or sexist
insulting or disparaging language) or other slurs to refer to Angela DeBose, the plaintiff in this
action.”
No evidence was presented that Petitioner ever made a public records request seeking the
records articulated in PRRBNP No. 3. Further, there was no evidence presented that USF received
any such request, or that such records even exist. Therefore, given the testimony and evidence
adduced at the evidentiary hearings, the Court finds that Petitioner has failed to meet her burden
of proof regarding the documents requested in PRRBNP No. 3. See O'Boyle, 257 So. 3d at 1040.
Die Court finds Petitioner is not entitled to mandamus relief with respect to PRRBNP No. 3.
Public Records Requested But Not Provided No. 4
Public Records Requested But Not Provided No. 4 seeks “[a]ny and all documents (emails,
letter, memoranda, etc.) from January 2014 to June 2015 that refer to the race-gender of Angela
DeBose, the plaintiff in this action.”
No evidence was presented that Petitioner ever made a public records request seeking the
records articulated in PRRBNP No. 4. Further, there was no evidence presented that USF received
any such request, or that such records even exist. Dierefore, given the testimony and evidence
adduced at the evidentiary hearings, the Court finds that Petitioner has failed to meet her burden
of proof regarding the documents requested in PRRBNP No. 4. See O’Boyle, 257 So. 3d at 1040.
Die Court finds Petitioner is not entitled to mandamus relief with respect to PRRBNP No. 4.
Public Records Requested But Not Provided No. 15
Public Records Requested But Not Provided No. 15 seeks “[a]ny public records created,
received, held, or maintained by USFBOT in which in [sic] Travis Thompson discusses working
with Paul Do sal and/or Bob Sullins to get ‘AD’ fired. Provide emails referring to Plaintiff Angela
DeBose in any case form (lower, upper, mixed case) as noted above item D - Definitions and
Instructions in the possession, custody, or control of the USFBOT. Provide if fired, removed,
‘eliminated,’ or ‘terminated’ is used in this context. Provide emails if ‘Paul or Dosal is used,
whether or not others are also included in the copy.”
PRRBNP No. 15 corresponds to PRR No. 3, which was an August 31, 2015, email from
Petitioner to Solis with the subject ‘Travis Thompson Email.” Petitioner’s Exhibit 54. In the body
of the email, Petitioner requests “specific email(s) from Travis Thompson that closely aligns to or
matches the following description.” Petitioner provided the following limiting description:
“Statement from Travis Thompson wherein he states that he is working with Paul Dosal to get
Page 5 of 11

Petition App. 6
‘AD’ fired.” Petitioner additionally requested such responsive emails that contained certain
keywords such as “Angela.” “DeBose,” “fired,” “terminated,” “Paul” and “Dosal,” among other
related terms. Finally, Petitioner stated that this email was a public records request.
No evidence was presented that the requested documents exist. Indeed, Solis testified that
he informed Petitioner that USF had not found any documents responsive to this request. USF
Exhibit 44; T. 4/3/19 p. 42-43. Therefore, given the testimony and evidence adduced at the
evidentiary hearings, the Court finds that Petitioner has failed to meet her burden of proof in
establishing that the records requested in PRRBNP No. 15 in fact exist See O Boyle, 257 So. 3d
at 1040. The Court finds Petitioner is not entitled to mandamus relief with respect to PRRBNP No.
15.
Public Records Requested But Not Provided Nos. 16,17,18, and 19
Public Records Requested But Not Provided No. 16 seeks “Caurie Waddell’s Exit
Interview and related documents.” PRRBNP No. 17 seeks “[a]ny and all documents received by
USF Human Resources (‘HR’) from Paul Dosal to investigate Caurie Waddell’s reasons for
leaving USF.” PRRBNP No. 18 seeks “[ajny and all documents received or sent, to or from other
parties (e.g. emails from Travis Thompson, Bob Sulims, Sara Thomas, or Paul Dosal, etc.) about
Caurie Waddell or her departure from USF in 2014.” PRRBNP No. 19 seeks “[a]ny reports or
findings from HR to Paul Dosal and others concerning Caurie Waddell.”
PRRBNP Nos. 16,17,18, and 19 correspond to two of Petitioner’s public records requests.
First, PRR No. 5 was an August 5, 2015, email from Petitioner to Solis with the subject
“CHAPTER 119 - PUBLIC RECORDS REQUEST.” In the body of that email, Petitioner sought
the following:
Caurie Waddell’s Exit Interview and Related documents, including any
and all documents received by HR from Paul Dosal to investigate
Caurie Waddell’s reasons for leaving USF; any and all documents
received from or pertaining to other parties, including emails from
Travis Thompson, Bob Sullins, or Paul Dosal; and any reports or
findings from HR to Paul Dosal, et al., concerning Caurie Waddell.
Petitioner’s Exhibit 54. Second, PRR No. 1 was a June 15, 2015, email from Petitioner to Solis
with the subject “CHAPTER 119 - PUBLIC RECORDS REQUEST.” In the body of that email,
Petitioner sought the following:
June 2014 email from Travis Thompson to Paul Dosal and Bub Sullins.
The email concerns Caurie Waddell’s reason for leaving USF. The
email makes specific references to Angela DeBose. The existence of
the email was first reported on June 12, 2014. Paul Dosal
acknowledged existence of the email on June 23,2014.
Petitioner’s Exhibit 54.
Other than a Departmental Exit Process List, no evidence was presented that any other
documents exist which are responsive to this request. USF Exhibit 52. The evidence established
that on August 11, 2015, USF produced Caurie Waddell’s entire personnel file to Petitioner,
including fiie Departmental Exit Process List. USF Exhibit 23. With regard to email(s) from Travis
Page 6 of 11

Petition App. 7
Thompson, Dosal testified that on June 23,2014, Petitioner asked Dosal for a single email sent by
TrgTnK-ThnmpsonJ^-1T/2/-I8-d.J78-79. Dosal testified that he told Petitioner such email did not
exist. Id. Moreover, Dosal testified that he does not consider oral requests ffonrco^workersto bethe equivalent of a public records request Id. Additionally, Solis testified that he received PRR
No. 1 in mid-June 2015. T. 4/3/19 p. 43. No evidence was presented that the specific email
requested in PRR No. 1 actually exists. Therefore, given the testimony and evidence adduced at
the evidentiary hearings, the Court finds that Petitioner has failed to meet her burden of proof in
establishing that the records requested in PRRBNP No. 16, 17, 18, and 19 in fact exist. See
O'Boyle, 257 So. 3d at 1040. Moreover, the only document shown to exist that is responsive to
this request was timely produced by USF. The Court finds Petitioner is not entitled to mandamus
relief with respect to PRRBNP Nos. 16,17,18, and 19.
Public Records Requested But Not Provided No. 20
Public Records Requested But Not Provided No. 20 seeks “[Records of any telephone calls
twaHf! to Gerard Solis, or anyone else on his behalf, concerning Angela DeBose, from June 2014
to June 2015, including phone biUs, long distance phone records, voice messages, emails, or
electronic/hardcopy notes. This would include any comments, statements, discussion, or reports
about Angela DeBose’s employment, retention, termination, discrimination, etc. This would
include any typed, handwritten, recorded, etc. public records Gerard Solis created.
PRRBNP No. 20 corresponds to PRR No. 6, which was an August 12, 2015, email from
Petitioner to Solis with the subject “Telephone Records, etc.” Despite the characterization of
PRRBNP No. 20, what PRR No. 6 actually requested was the following:
1. Records of any telephone calls made to you, or anyone else on your
behalf, by Angela DeBose, in June 2014. Such records shall
include, without limitation, phone bills, long distance phone
records, voice messages, or notes or other documentation of any
aspect such as telephone calls. Additionally, provide the date, time,
and length of any and all calls, hang-ups, disconnects, etc. and the
actual unmanipulated voice recordings left on your answering
service.
2. Records of any telephone calls made by you, or anyone else on your
behalf, to Angela DeBose, in June 2014. Such records shall include,
without limitation, phone bills, long distance phone records, voice
messages, or notes or other documentation of any aspect such as
telephone calls. Additionally, provide the date, time, and length of
any and all calls, hang-ups, disconnects, etc. and the actual
unmanipulated voice recordings left on your answering service.
3. Any and all original notes you made, whether typed, handwritten,
records, etc., concerning your June 2014 phone discussions with
Angela DeBose.
Petitioner Exhibit 54. Petitioner further stated that the request was “[i]n follow-up to the hearing/’
and requested that “please provide or bring with you the following for the 8/14 deposition. Id.
The Court initially questions whether this was a valid public records request or a deposition duces
tecum request. However, that issue aside, the Court finds that even if this were a valid public
Page 7 of 11

Petition App. 8
records request, no evidence was presented that responsive records exist or that if such records
■ffljgt,that T TSF refused to produce such records. Therefore, the Court fmds that Pctinoner as failed
^rneet herbidOTof proof regarding thTdocumentsfequestedinPR^NP^o.^0.^^^
257 So. 3d at 1040. The Court finds Petitioner is not entitled to mandamus relief with respec
PRRBNP No. 20.
Public Records Requested But Not Provided No. 22
Public Records Requested But Not Provided No. 22 seeks “Public Records Requestto
Brian Allman USF Human Resources, for termination data by race/ethnicity and gend .
PRRBNP No^ corresponds to PRR No. 9, which was anAugust ^

1

I

severance^pay in connection with their separation from USF. Id. Information regarding separation
amreementsls not customarily maintained in personnel files. Id. at 284. Nor » ^ ‘
^eJhat would indicate whether or not someone resigned voluntarily or were asked to
at 200. Allman confirmed that there was no way to readily pull data
employee’s retirement. Id. Solis confirmed that significant_ portions of(the
in PRR No 9 would have to be created. Id. at 293-94. For instance, Altaian confirmed taatacase
by case assessment would have to occur whereby someone would go from J^nrent to
department to interview people to find out the cause for resignation or retirement. Id. at 144.
On October 7 2014, USF sent Petitioner the available, responsive data, but informed her
I+JSSSSm* ™uld require to ^donof «w toa^u
nf information technology and clerical services. USF Exhibit 12. On March 27,2015, Petitioner
w^pre^Sdwita a Chfge Document in the amount of $1,206.80 related to therecords request^
in PRR No. 9. USF Exhibit 12; T. 4/3/19 p. 16-17. No evidence was presented demonstrating that
Petitioner ever paid the amount required in the Charge Document
Given the testimony and evidence adduced at the evidentiary hearings, the Court finds that
USF timely produced res^nsive documents that were in existence. No legal authority has been
eS wtach would require USF to crea/e responsive documents. Moreover, Petitioner failed
pres
to nav the amount USF requested to undertake the creation of documents which may have provided
P ^ . . r.Therefore Petitioner failed to meet her burden of proof regarding the

3-;
is not entitled to mandamus retief with respect to PRRBNP No. 22.

^finds petitioner

Public Records Requested But Not Provided No. 23
Public Records Requested But Not Provided No. 23 seeks “Public
Gerard Solis and Lori Mohn, USFBOT Office of the General Counsel, for Ellucian, L.P. USFBOT
p“ «^a«ed’to to Ellucian Agreement,
vrithout the names of the parties signing/executmg agreement PRRBNP No. 23corre^on
PRR No. 11 which was a September 21,2015, email from Petitioner to Sobs and LonMohn with
,
«pubiic Records Request.” In the body of that email, Petitioner requested a complet
?;;Uofto EtodsX^S Services Agreement with USF. pursuant ,0 Andrea D.anrond’s

Page 8 of 11

Petition App. 9
visit it [sic] April 2015.” Petitioner further requested “Andrea Diamond’s meeting schedule during
tho visit as coordinated by Carrie Garcia.” Finally, Petitioner requested “any and all emails that
went out from Paul Dosal or other members of thiDegreeWorks -Steering-Gommittee^onceming.
the Ellucian DegreeWorks Post-Implementation Report.” Petitioner Exhibit 54.
The testimony of Solis established that he interpreted PRR No. 11 as seeking documents
related to the engagement of Andrea Diamond in April 2015, and not to all Ellucian contracts with
USF. T. 11/2/19 p. 271-72. On October 1, 2015, USF produced the scope document and the
contracting document for the post-assessment review. Id at 272. USF provided a second
production of responsive records to Petitioner on October 29, 2015. Id. at 283-84; T. 5/21/19 at
34-35.
The Court notes that PRR No. 11 was not part of Petitioner’s original petition for writ of
mandamus, but rather was included in Petitioner’s Second Amended Petition. Given the testimony
and evidence adduced at the evidentiary hearings, the Court finds that Petitioner s request in PRR
No. 11 was a narrower request than that presented in PRRBNP No. 23. The Court further finds
that USF timely responded to the narrower PRR No. 11. Therefore, Petitioner failed to meet her
burden of proof regarding the records requested in PRRBNP No. 23. See O'Boyle, 257 So. 3d at
1040. The Court finds Petitioner is not entitled to mandamus relief with respect to PRRBNP No.
23.

Additional Public Records Request
On July 23, 2015, Petitioner requested the “current or most recent address on record for
the USF current/former employees, agents, assigns, etc.” Petitioner Exhibit 54. On August 3,2015,
Petitioner requested “the last known address of record for Tonia Suber, Bea Smith, Jennifer
Derushia, and Caurie Waddell.” Petitioner Exhibit 54. After Petitioner narrowed her request, USF
produced the requested, narrowed information on August 5,2015. Petitioner Exhibit 90. Therefore,
although neither of these requests were included in Petitioner’s Notice of Filing of the Amended
List ofPublic Records Requested But Responses Not Provided,ite Court finds that USF produced
tiie requested documents in a timely manner. Accordingly, Petitioner Med to meet her burden of
proof regarding these two additional requests. See O’Boyle, 257 So. 3d at 1040. The Court finds
Petitioner is not entitled to mandamus relief with respect to these additional public records
requests.
Conclusions ofLaw
A petition for writ of mandamus seeks to remedy a government’s failure to do something
it is required by law to do by obtaining a court order commanding such action of the government.
To obtain a writ of mandamus, a petitioner must establish the following.
(1) the petitioner has a clear and certain legal right
(2) to the performance of a particular duty
(3) by a government or a representative of the government
(4) whose performance of that duty is ministerial and not discretionary,
(5) who has failed to perform despite an adequate request, and
(6) who has left the petitioner with no other legal method for obtaining
relief.

Page 9 of 11

Petition App. 10
21 Fla. Prac., § 1701:1 (2019-20 ed.); see also Huffman v. State, 813 So. 2d 10,11 (Fla. 2000). As
noted above, to establish a cause of action under the Public Records Act, the litigant must “prove
they made a specific request for public records/theT[state agencyj receivedltrthe requested public
records exist, and the [state agency] improperly refused to produce them in a timely manner.”
O 'Boyle, 257 So. 3d at 1040. A writ of mandamus with respect to a public records request will not
issue where it is not shown that the requested documents) actually exist. See Skeen v.
D'Alessandro, 681 So. 2d 712,713 (Fla. 2d DCA1995) (citing State ex rel Ostroffv. Pearson, 61
So. 2d 325, 326 (Fla. 1952) (holding that writ will not issue when evidence showed papers no
longer existed)). A writ of mandamus is similarly not warranted where the issue has become moot,
for example, where the state agency has provided the responsive documents. See generally
Huebner v. Huebner, 93 So. 3d 470,471 (Fla. 2d DCA 2012).
The Court concludes that Petitioner has failed to meet her burden of proving that she made
specific requests for public records, that USF received each of those requests, that each of those
requested records actually exist, and that USF improperly refused to produce such records in a
timely manner. As outlined above, the evidence established that the requested public records either
did not exist, or where such did exist, that they were provided in a timely manner under the
circumstances. See Citizens Awareness Found., Inc. v. Wantman Group, Inc., 195 So. 3d 396,399
(Fla. 4th DCA 2016) (“Where delay is at issue, as here, the court must determine whether the delay
was justified under the facts of the particular case.”) (quoting Lilker v. Suwannee Valley Transit
Auth, 133 So. 3d 654,655 (Fla. 1st DCA 2014)). This is particularly true where, as here, some of
the requests became moving targets, morphing over the course ofthis litigation. Having considered
all of the testimony and evidence presented at each of the evidentiary hearings in this matter, the
Court concludes that Petitioner has failed to establish entitlement to a writ of mandamus.
Petitioners Attorney's Fees Request
With regard to Petitioner’s request for attorney’s fees, section 119.12(1), Florida Statutes,
provides as follows:
(1) If a civil action is filed against an agency to enforce the provisions
of this chapter, the court shall assess and award the reasonable costs
of enforcement, including reasonable attorney fees, against the
responsible agency if the court determines that:
(a) The agency unlawfully refused to permit a public record to be
inspected or copied; and
(b) The complainant provided written notice identifying the public
record request to the agency’s custodian of public records at
least 5 business days before filing the civil action, except as
provided under subsection (2). The notice period begins on the
day the written notice of the request is received by the custodian
of public records, excluding Saturday, Sunday, and legal
holidays, and runs until 5 business days have elapsed.
§ 119.12(1), Fla. Stat. (2017) (emphasis added). It is only under these certain conditions that
section 119.12 “permits the award of attorney’s fees to a prevailing litigant who has filed a civil
action against an agency to enforce the provisions of Florida’s public records law.” Office ofState
Attorney v. Gonzalez, 953 So. 2d 759, 762-63 (Fla. 2d DCA 2007) (emphasis added). The Court
concludes that Petitioner is not entitled to attorney’s fees because she failed to prove that USF
unlawfully refused to permit a public record to be inspected or copied. Petitioner failed to meet
Page 10 of 11

Petition App. 11
her burden of proof with respect to each of her claims against USF. Therefore, she is not entitled
io-an award .ofcosts or fees in this matter. Moreover, Petitioner has represented herself throughout
the majority of this action, and certainly for the entirety of the multiple evidentiary hearingsT
Petitioner, who is not a licensed Florida Bar attorney, is not entitled to attorney’s fees for
representing herself. Consequently, Petitioner’s request for attorney’s fees is denied.
Any and AU Other Pending Motions
Any and all other pending motions for which a separate hearing was not held or for which
a separate order was not entered are deemed denied by entry of this final order.8
Accordingly, it hereby is ORDERED as follows:
1.

Petitioner’s Second Amended Petition is DENIED, in part, as to
Petitioner’s Public Records Requested But Not Provided Numbers 1,
2, 3, 4, 15, 16, 17, 18, 19, 20, 22, and 23. Having decided herein die
remaining disputed issues in this case according to the procedure set
forth in the Court’s August 16, 2018, Order Continuing Evidentiary
Hearing, the Court enters this Final Order Denying Second Amended
Petition for Writ ofMandamus as thefinal order in this case.

2.

The Court reserves jurisdiction to enter any other or additional orders
or judgments that may be necessary or appropriate, including an order
or judgment awarding prevailing party attorneys’ fees and/or costs.

DONE AND ORDERED: January ££ 2020.

ELI^BETH G. RICE
Circuit Court Judge
ttfi Conformed copiesfurnished by U.S. Mail to:
■i Angela DeBose, pro se
^ Richard C. McCrea, Jr., Esq.
Cayla Page, Esq.

I

* The Court notes that in her December 9, 2019, Motion for Extension of Time, Petitioner additionally
argued that a pending motion for partial summary judgment had not yet been heard, required a hearing, and
somehow prevented the Court from entering an order on the final evidentiary hearing in this matter. In its
December 11, 2019, order denying Petitioner’s request, the Court explained that separate hearing time
would not be provided with respect to Petitioner’s motion for partial summary judgment as the time for a
separate hearing on that matter had passed. Moreover, a separate hearing on die motion for partial summary
judgment was simply not necessary where a final evidentiary hearing had been held and die Court had
already heard all the evidence that could or would be presented in this matter. Essentially, any “pending”
motion for summary judgment was subsumed in the final evidentiary hearing. Petitioner also filed
Petitioner’s Motion to Modify Order on December 11, 2019. The Court finds a separate hearing on this
motion likewise is not required, and it too is denied by the entry of this final order.
Page 11 of 11

i

Petition App. 12

Appendix B

NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING
-MOTION AND, IF"Fll~E07DETERM1NtBrz=^-^IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
SECOND DISTRICT
ANGELA DeBOSE,
Appellant,

)
)
)
)

)

v.
UNIVERSITY OF SOUTH FLORIDA
BOARD OF TRUSTEES,
Appellee.

Case No. 2D20-594

)
)
)
)
)

Opinion filed March 10, 2021.
Appeal from the Circuit Court for
Hillsborough County; Elizabeth G. Rice
Judge.
Angela DeBose, pro se.
Richard C. McCrea, Jr., and Ca.yla McCrea
Page of Greenberg Traurig, P.A.,
Attorneys for Appellee.
PER CURIAM.
Affirmed.
LaROSE, ROTHSTEIN-YOUAKIM, and STARGEL, JJ„ Concur.

Appendix C

Petition App. 13

—IN-THE-DISTRICT-COURT_QJLAPPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327
April 21,2021
CASE NO.: 2D20-0594
L.T. No.: 15-CA-5663
ANGELA DE BOSE
Appellant / Petitioner(s),

v.

UNIVERSITY OF SOUTH FLORIDA
BOARD OF TRUSTEES
Appellee / Respondent(s).

BY ORDER OF THE COURT:
Appellant's motion for rehearing, rehearing en banc, written opinion, clarification,
and certification of important question to the Florida Supreme Court is denied.
I HEREBY CERTIFY that the foregoing is a true copy of the original court order.
Served:
CAYLA MC CREA PAGE, ESQ.
ANGELA DE BOSE
mep

Mary Elizabeth Kuenzel
Clerk

RICHARD C. MC CREA, JR., ESQ.
CINDY STUART, CLERK

Appendix D

Petition App. 14

IN THE CIRCUIT COURT OF THE THIRTEENTH JUDICIAL CIRCUIT
HILLSBOROUGH COUNTY, FLORIDA
"
---------------- CIVIL-DIVISION-----------------------------------ANGELA DEBOSE,
Plaintiff/Petitioner,
CASE NO. 15-CA-005663
DIVISION: C

v.
USF BOARD OF TRUSTEES,
USF ACADEMIC AFFAIRS OF USF,
STUDENT SUCCESS OF USF, and
PAUL DOSAL,
Defendants/Respondents.

ORDER DENYING SECOND AMENDED PETITION, IN PART
THIS CASE came before the Court for an evidentiary hearing on October 9, 2018, on
Petitioner’s Second Amended Petition, for. Writ of Mandamus and for Violation of the Florida
Public Records Law and Relief Pursuant to Article 1, Section 24 of the Florida Constitution and
Chapter 119 and Chapter 86 (“Second Amended Petition”) as to the bifurcated issue of the
reasonableness of charges for producing documents in response to various public records requests
made by the petitioner, Angela DeBose (“DeBose”), to respondents, USF Board of Trustees, USF
Academic Affairs of USF, Student Success of USF (the USF entities will be referred to hereinafter
collectively as “USF”), and Paul Dosal (“Dosal”).
The Court has considered the Second Amended Petition, together with the relevant portions
of the court file; has reviewed the parties’ written submissions in support of and in response to the
Second Amended Petition as it relates to the issue of the reasonableness of USF’s charges in
producing requested documents; has reviewed the testimonial and documentary evidence
presented by the parties; has had the opportunity to observe the demeanor of each witness and
assess each witness' credibility; and has considered the applicable statutory and case law and rules

Petition App. 15
of procedure. Based on the foregoing, the Court makes the findings of fact and conclusions of law
more.' parti cularly’ setlarth- below..
FINDINGS OF FACT
Bifurcated Final Evidentiary Hearine
1.

On August 16, 2018, the Court entered its Order Continuing Evidentiary Hearing,

which set the issues for hearing at the October 9,2018, evidentiary hearing as follows: “The Court
will conduct an evidentiary hearing to address the reasonableness of fees charged in response to
Petitioner's Public Records Request Nos. 5-14 and 21, as delineated in Petitioner's Amended List
of Public Records Requested but Not Provided by Respondent University of South Florida Board
of Trustees, filed on April 9, 2018.”
XJSF Subject to Public Records Act
2.

USF is a state agency and is therefore subject to Chapter 119, Florida Statutes.

[10/09/18 Evidentiary Hearing Transcript, Gerard Solis (“Solis”) 27:22-25]
USF Public Records Request Policies and Procedures
3.

Solis has been employed with USF since 2003. [10/09/18 Evidentiary Hearing

Transcript, Solis 114:13] He has been continuously involved with responding and assisting in
responding to public records request throughout his employment with USF and is familiar with the
procedure USF follows with respect to responding to a public records request.

[10/09/18

Evidentiary Hearing Transcript, Solis 114:16-24] He likewise is familiar with USF’s policies in
responding to public records requests. [10/09/18 Evidentiary Hearing Transcript, Solis 122123;24-25; 1-2]
4.

USF’s practice and policy when a Public Records Act request (“PRR”) is received

is to first, have “[t]he custodian of the record make an initial determination about whether an
exemption applies. The threshold determination is do they have the record and whether an
Page 2 of 19’

Petition App. 16
exception would apply.” [10/09/18 Evidentiary Hearing Transcript, Solis 115:3-6] Next, the

Evidentiary Hearing Transcript, Solis 115:7-13] If the volume is significant, then USF would
likely prepare a charge document of estimated charges. [Id.] Large requests, nine out of 10 times,
involve requests for emails. [Id.] Next, USF must determine whether a public records exemption
applies to any of the requested documents. [10/09/18 Evidentiary Hearing Transcript, Solis 116:513]

There are several exemptions that would apply for the types of documents in USF’s

possession.

[10/09/18 Evidentiary Hearing Transcript, Solis 116-117:5-25; 1-7]

Once the

universe of documents has been determined, USF typically would review them and determine
whether any exemptions apply. [10/09/18 Evidentiary Hearing Transcript, Solis 118:8-10] These
practices are the standardized practices for all PRR’s coming through the general counsel’s office.
[10/09/18 Evidentiary Hearing Transcript, Solis 118:11-14]
5.

USF recently revised its policy on responding to public records requests and

defined “extensive” clerical and information technology (“IT”) time as beginning “after 15
minutes of staff time,” to clarify prior policy. [10/09/18 Evidentiary Hearing Transcript, Solis
97:15-16]
6.

To estimate the time necessary to review documents for exemptions or privileged

information, USF uses a standard formula for all public records requests. [10/09/18 Evidentiary
Hearing Transcript, Lori Mohn-McNenney (“Mohn”) 173:4; 7-8] USF did not develop the
formula; rather, it was taken from the cost recovery policy posted on the Governor’s website.
[10/09/18 Evidentiary Hearing Transcript, Mohn 173-174:10-11; 13-14; 24-25; 1-2]
7.

The formula for calculating the labor cost is as follows: The number of emails1 is

multiplied by 60 seconds per email in order to get the total number of seconds that it would take

1 The number of emails reflected in the Charge Document does not take into account the amount of pages per email,
which can far exceed the raw number of emails pulled from each custodian’s email by IT.

Page 3 of 19

Petition App. 17
to complete review of the emails for redactions. Next, the number of seconds is divided by 60 in
order, to. get, the total number of minutes me. revlew, would, require:; TheTxamber-olfmintites4s-again
divided by 60 in order to get the total number of hours the review would require. Finally, the hour
figure is multiplied by the lowest hourly rate, not including benefits, of the clerical employee
reviewing the documents. [10/09/18 Evidentiary Hearing Transcript, Mohn 189-190:24-25; 1-6
and Defendant’s Exhibit No. 35]
8.

As some emails take five seconds to review and some take five minutes, it has been

USF’s long-standing practice and the practice of the general counsel’s office to use 60 seconds per
email as an estimate for the length of time needed to review an email. [10/09/18 Evidentiary
Hearing Transcript, Solis 128-129:19-23; 1] The 60-second estimate is always used, not just for
PRR’s from DeBose. [10/09/18 Evidentiary Hearing Transcript, Solis 128-129:24-25; 1]
9.

The Florida Governor’s website allows for salary and benefits to be included in the

hourly rate of the clerical worker performing the labor associated with responding to the public
records request. [10/09/18 Evidentiary Hearing Transcript, Mohn 194:3-11] USF, however, does
not include benefits in the hourly rate of its clerical worker in response to public records requests,
and General Counsel’s Office did not include benefits in the hourly rate charged in any of the
estimates provided to DeBose that are the subject of this case. [Id.]
10.

The review and redaction of each public records request, including the requests that

are the subject of this case, are performed manually. “[E]very single file would have to be
reviewed for exemption information” by paralegals and other legal assistants in the General
Counsel’s Office. [10/09/18 Evidentiary Hearing Transcript, Mohn 179: 10-16] USF General
Counsel’s Office does not have redaction software. [Id.] For a redaction software to have the
capability to redact student information, all current and former students’ names and information

Page 4 of 19

Petition App. 18
would have to be inputted into a system. [10/09/18 Evidentiary Hearing Transcript, Solis 135136.: 24-25:1 -2]
11.

The review and redaction of public records requests typically takes “more time”

than the time estimate reflected in charge documents. [10/09/18 Evidentiary Hearing Transcript,
Mohn 195:23] USF, however, does not subsequently send a revised charge document reflecting
the additional time expended. [10/09/18 Evidentiary Hearing Transcript, Mohn 194:1-4]
12.

USF has provided refunds when the estimated cost reflected in the charge

documents exceeds the actual labor/clerical cost. [10/09/18 Evidentiary Hearing Transcript, Solis
107-108: 23-25; 1-3]
13.

The General Counsel’s Office has never included Solis’ hourly rate in calculating

DeBose’s request estimations, even when Solis performed a secondary review of documents
requested. Because Mohn’s hourly rate is lower, USF uses her hourly rate in determining the
hourly rate associated with the review. [10/09/18 Evidentiary Hearing Transcript, Solis 50:11-12]
14.

The formula for calculating the IT costs is as follows: The hours estimated

multiplied by the hourly rate of the IT employee. [10/09/18 Evidentiary Hearing Transcript, Mohn
189-190:24-25; 1-6 and Defendant’s Exhibit No. 35]
15.

USF only charges for IT or clerical time if the request is extensive. If not, USF

would apply the standard fee of $0.15 to $0.20 provided for in Chapter 119(4)(a)(l) and (2),
Florida Statutes, for copies of documents. The $0.15 to $0.20 fee is only for copies and “has
nothing to do with the review and redaction of emails.” [10/09/18 Evidentiary Hearing Transcript,
Mohn 193:11-14]
16.

USF requires advance payment for public records requests that require extensive

IT or clerical support, evidenced by the production of a charge document to the requestor.
[10/09/18 Evidentiary Hearing Transcript, Solis 31:9-10]
Page "5 of 19

Petition App. 19
17.

USF now requires advance payment for IT to perform a requestor’s search, rather

but [USF] used to let requestors basically get away with having the search done before they paid.
And then [General Counsel’s Office] would end up eating the cost or IT would end up eating the
cost. So now [General Counsel’s Office has] ... the requestor pay for IT search. And then once
the requestor pays for the search, [General Counsel’s Office has] IT do the search.” [10/09/18
Evidentiary Hearing Transcript, Mohn 175:12-18]
18.

USF did not treat DeBose’s requests any differently than any other public records

request and “the charges and processes for charges ... [have] been applied consistently regardless
of who makes the request.” [10/09/18 Evidentiary Hearing Transcript, Solis 124:16-23] There is
no difference between the way that the costs are calculated for DeBose and anyone else. [ 10/09/18
Evidentiary Hearing Transcript, Solis 125:14-18] Anyone who makes a public records request to
USF is required to pay an estimated charge. [10/09/18 Evidentiary Hearing Transcript, Solis
125:8-13]
19.

USF has never withheld or failed to provide responses to DeBose’s requests for

public records, unless DeBose failed to pay the costs of extensive clerical or IT use/labor associated
with her requests. [10/09/18 Evidentiary Hearing Transcript, Solis 32-33:24-25; 1-8; Mohn
186:13-17]
20.

The Court finds credible the testimony of Solis and Mohn as it relates to USF’s

policies and procedures in handling Public Records Act requests.
Public Records Requests. Searches, and Responses at Issue
21.

DeBose was the Registrar of USF until May of 2015. [Defendant’s Exhibit No. 32]

Since approximately 2015, USF has “received many requests from the Petitioner... [S]ometimes

Page 6 of 19'

Petition App. 20
[USF] has identified exemptions. Other times [USF] [has] provided charges. Other times [USF]
““has produced documents' to DeiJose. [TlO/.O9/18^SdderitiaTy.ddEaring-Franse«ptp&0ii-Sr2-8i6-9^
22.

August 12,2015, PRR - On August 12, 2015, months after DeBose’s termination

in May of 2015, DeBose sent an email to Kofi Glover (“Glover”), Vice President for HR & Space
Planning, and Mike Beedy (“Beedy”) of the HR Department, renewing an apparent verbal request
for “all of [DeBose’s] email files and all of [DeBose’s] computer files on disk or thumb drive.”
[Defendant’s Exhibit No. 32] DeBose indicated that she had made this request at the May 19,
2015, meeting when she was informed that her contract with USF was being non-renewed. [Id.]
Glover informed DeBose in a reply email that she made no such request during the meeting, but if
she wished, she could renew that request. [Id.]
23.

August 16,2015, PRR - On August 16,2015, DeBose sent a public records request,

pursuant to Chapter 119, Florida Statutes, by email to Solis, then Associate General Counsel,
copying his administrative specialist/paralegal, Mohn. [Defendant’s Exhibit No. 28] DeBose
requested “email and other similar electronic records that contain the name ‘DeBose’” in the
possession of President Judy Genshaft, Provost Ralph Wilcox, Sydney Fernandes, Robert Sullins,
Travis Thompson, Carrie Garcia, Sarah Thomas, Glover, Beedy, and Alexis Mootoo. [Id.]
24.

August 31, 2015, PRR - Thereafter, on August 31, 2015, DeBose sent a public

records request to Solis and Mohn requesting “email(s) from Travis Thompson that closely aligns
to or matches the following description. Statement from Travis Thompson where he states that he
is working with Paul Dosal to get “AD” fired. Provide emails if “Angela”, “DeBose”, “Angela
DeBose”, “the Registrar” are used also or instead in this context. Provide emails if “fired,”
“termination,” removed, 99 it eliminated,” etc. are used in this context. Provide emails if “Paul”,
“Dosal”, is used. Provide whether or not others are included or copied in the email (e.g. Bob
Sullins, advisors, etc.).” [Defendant’s Exhibit No. 39]
Page? 'ofT9

Petition App. 21
USF’s Charges and Charge Documents
— 25..

vs. after

Charge Uommeiit~#l~On7i*aigust-^£)7

DeBose made her public records request to Glover, Mohn provided DeBose a “University of South
Florida Public Records Charge Document” (“Charge Document #1”) [Defendant’s Exhibit No. 32]
Charge Document #1 reflects an estimate of the “extensive use of IT resources, file retrieval,
queries, etc.” and of the labor cost, which included “extensive clerical and/or supervisory labor”
in the review and redaction required for the production of DeBose’s 27,623 emails revealed by
IT’s search. [Id.] Specifically, Charge Document #1 reflects it would require Mohn 460.38 hours
to review all 27,623 of DeBose’s emails. [Id.] As the former Registrar for USF, DeBose had “high
clearance with USF” to review documents that contained student information and other
information subject to redaction/exemption laws. [10/09/18 Evidentiary Hearing Transcript, Solis
53:21-23] Because DeBose was in a unique position as the University Registrar, DeBose had
substantially more access to student information and it was likely that such student information
would be included in her emails. As a result, the review of her emails and files requires a more
thorough review and redaction process to ensure that information is not disclosed in violation of
the Family Educational Rights and Privacy Act of 1974,20 U.S.C. § 1232g (“FERPA”). [10/09/18
Evidentiary Hearing Transcript, Solis 45:5-8] The review and redaction time of DeBose’s 27,623
emails, using the formula provided by the Florida Governor’s website, was estimated at $9,083.29.
[10/09/18 Evidentiary Hearing Transcript, Mohn 173-174:25; 1-2]
26.

After her receipt of Charge Document #1, DeBose inquired whether she could

inspect her own records, supervised by a USF employee.

[10/09/18 Evidentiary Hearing

Transcript Solis 44:24-25] Solis informed DeBose in response that “USF is obligated to complete
the appropriate redactions prior to production. Unauthorized disclosures would occur upon your
review of non-redacted records, which would not be cured by verification afterwards.” [Plaintiff s
Page 8 of 19’

Petition App. 22
Exhibit No. 31; 10/09/18 Evidentiary Hearing Transcript, Solis 45:5-7] The disclosures would be
;rX3

have access and be authorized to see things that were in the registrar with a very high clearance
was no longer valid.” [10/09/18 Evidentiary Hearing Transcript, Solis 57:3-6] USF accordingly
declined DeBose’s request to “preview” her emails as a means by which to reduce the number of
emails subject to Mohn’s review and to reduce the review and redaction cost.
27.

DeBose has failed to pay USF in advance the $9,083.29 estimated cost for the

production of documents reflected in Charge Document #1. USF, consistent with its standard
policy and procedure, has refused to provide DeBose the requested documents.

[10/09/18

Evidentiary Hearing Transcript, Solis 129:16-18]
28.

Charge Document #2 - On August 25, 2015, approximately nine days after

DeBose made her public records request to Solis, Mohn responded to DeBose’s request with a
“University of South Florida Public Records Charge Document” (“Charge Document #2”) which
provided DeBose a cost estimate for her request for President Genshaft’s and Provost Wilcox’s
emails. Charge Document #2 reflects an estimate of the “extensive use of IT resources, file
retrieval, queries, etc.” and of the labor cost, which included “extensive clerical and/or supervisory
labor” in the review and redaction required for the production of President Genshaft’s and Provost
Wilcox’s emails.2 [Defendant’s Exhibit No. 35] A search by IT of President Genshaft’s email
returned 232 relevant emails. [Id.] A search by IT of Provost Wilcox’s email returned 920 relevant
emails. [Id.] The IT estimate for President Genshaft’s and Provost Wilcox’s emails is $49.82. [Id.]
The labor estimate for President Genshaft’s email is $76.283, and the labor estimate for Provost
2 The date cited in the body of Defendant’s Ex. No. 35 is a typo. The charge document was issued in response to
DeBose’s August 16, 2015, public records request, as indicated by the subject of the charge and by the name of the
attached document “Angela DeBose - Charge Document re 08/16/15 PRR re. emails referencing Angela DeBose
(00090733xBF0Fl).pdf.” [Defendant’s Ex. No. 35]
3 232 emails x 60 seconds per email = 13,920 seconds
■“hourly rate) = $76.28

60 = 232 minutes -*■ 60 = 3.86 hours x $19.73 (Lori Mohn

Page 9 of 19

Petition App. 23
Wilcox’s emails is $302.52.4 [Id.] The “Total Estimated Cost” provided to DeBose in response to
her August 16, 2015,. PRR, with respect to President~(jen'shaft7and-Provost-W-iie0xT-is~$428.62.
[Id.]
29.

DeBose has failed to pay USF in advance the $428.62 estimated cost for the

production of documents reflected in Charge Document #2. USF, consistent with its standard
policy and procedure, has refused to provide DeBose the requested documents.
30.

Charge Document #3 - On August 26,2015, approximately 10 days after DeBose

made her public records request, Mohn emailed a “University of South Florida Public Records
Charge Document” (“Charge Document #3”) to DeBose with an estimate for the remainder of her
August 16,2015, PRR. [Defendant’s Exhibit No. 36] Charge Document #3 reflects an estimate of
the “extensive use of IT resources, file retrieval, queries, etc.” and of the labor cost, which included
“extensive clerical and/or supervisory labor” in the review and redaction required for the
production of the emails of Sydney Fernandes, Robert Sullins, Travis Thompson, Carrie Garcia,
Sarah Thomas, Glover, Beedy, and Alexis Mootoo. Charge Document #3 includes, among other
information, an itemization of the number of emails recovered and the costs associated in
researching, reviewing, and producing the requested information.
31.

A search by IT of Sidney Fernandes’s email returned 282 relevant emails. [Id.]

Using the standard formula described in Paragraph No. 7 above, the labor cost for review and
redaction of Sidney Fernandes’s 282 emails was $92.73. [Id.]
32.

A search by IT of Robert Sullin’s email returned 1,060 relevant emails. [Id.] Using

the standard formula described in Paragraph No. 7 above, the labor cost for review and redaction
of Robert Sullin’s 1,060 emails was $348.56. [Id.]

4 920 emails x 60 seconds per email = 55,200 seconds •*- 60 = 920 minutes ^ 60 = 15.33 hours x $19.73 (Lori Mohn
hourly rate) = $76.28

Page 10 of 19

Petition App. 24
33.

A search by IT of Travis Thompson’s email returned 2,606 relevant emails. [Id.]

redaction of Travis Thompson’s 2,606 emails was $856.93. [Id.]
34.

A search by IT of Carrie Garcia’s email returned 189 relevant emails. [Id.] Using

the standard formula described in Paragraph No. 7 above, the labor cost for review and redaction
of Carrie Garcia’s 189 emails was $62.14. [Id.]
35.

A search by IT of Sarah Thomas’s email returned 359 relevant emails. [Id.] Using

the standard formula described in Paragraph No. 7 above, the labor cost for review and redaction
of Sarah Thomas’s 359 emails was $118.05. [Id.]
36.

A search by IT of Glover’s email returned 178 relevant emails. [Id.] Using the

standard formula described in Paragraph No. 7 above, the labor cost for review and redaction of
Glover’s 178 emails was $58.53. [Id.]
37.

A search by IT of Beedy’s email returned 219 relevant emails. [Id.] Using the

standard formula described in Paragraph No. 7 above, the labor cost for review and redaction of
Beedy’s 219 emails was $72.01. [Id.]
38.

A search by IT of Alexis Mootoo’s email returned 949 relevant emails. [Id.] Using

the standard formula described in Paragraph No. 7 above, the labor cost for review and redaction
of Alexis Mootoo’s 949 emails was $312.06. [Id.]
39.

In addition to the labor estimate, an IT estimate was also applied to each of the

searches. A USF Health IT employee estimated that it took two hours to complete the search of
all of the above-listed custodians. [Id.] The USF Health IT employee’s hourly rate ($45.49) was
multiplied by two hours for a total IT cost estimate of $90.98. [Id.]
40.

The same formula was applied to each custodian listed in the Charge Document to

determine the estimation of labor costs, which includes the review and redaction of documents.
Page 11 of 19

Petition App. 25
[Id.] The total labor cost for review and redaction, plus the cost of IT use, of 5,296 emails reflected
m Charge Document #3 was $2T011.99.ffz/:]~
41.

----------—----- -—-------------------------- —

DeBose has failed to pay USF in advance the $2,011.99 estimated cost for the

production of documents reflected in Charge Document #3. USF, consistent with its standard
policy and procedure, has refused to provide DeBose the requested documents.
42.

Charge Document #4 - In response to her August 31, 2015, PRR, Mohn provided

DeBose a “University of South Florida Public Records Charge Document” (“Charge Document
#4”). [Plaintiffs Exhibit No. 32] Charge Document #4 reflects an estimate of the “extensive use
of IT resources, file retrieval, queries, etc.” and of the labor cost, including “extensive clerical
and/or supervisory labor” in the review and redaction required for the production of Travis
Thompson’s emails. A search by IT of DeBose’s August 31, 2015, PRR returned 15,824 emails.
[10/09/18 Evidentiary Hearing Transcript, Solis 91-92:8-25; 1-12] The total cost estimate for the
August 31, 2015, PRR was $5,203.395 for labor/clerical review and redaction of documents.
43.

Debose has failed to pay USF in advance the $5,203.99 cost estimate for the

production of documents reflected in Charge Document #4. USF, consistent with its standard
policy and procedure, has refused to provide DeBose the requested documents.
44.

The Court finds that competent substantial evidence has been presented by USF to

demonstrate its policies and procedures regarding Public Records Act requests and the uniform
application of its policies and procedures as to all PRR’s made to USF.
45.

The Court further finds that competent substantial evidence supports the number of

emails identified by USF’s IT department and no credible evidence was presented to challenge the
accuracy of the number of emails identified.

5 15,824 emails x 60 seconds per email = 949,440 seconds
Mohn hourly rate) = $5,203.39.

60 = 15,824 minutes

Page 12 of 19

60 - 263.73 hours x $19.73 (Lori

Petition App. 26
46.

While DeBose challenged the accuracy of the number of emails identified in

Charge Document #4 and claimed .they wereTiot-proporttonate -t^-the sear-eh-re-ques^-it-appears-a.
reasonable explanation exists for the increased number of documents generated by the request. It
appears from Charge Document #4 that USF’s IT department generated an entirely new search
based on the additional search terms provided by DeBose in her August 31,2015, PRR, rather than
using the additional terms provided to perform a “refined” search on the initial 2,606 emails
previously disclosed for Travis Thompson in Charge Document #3.
47.

As the August 31, 2015, PRR failed to expressly request a “refined” search of the

2,606 emails previously disclosed, it is understandable how USF would conduct a new search
using the different narrations of DeBose’s name and 10 search terms and how this new search
would result in an increased number of emails. [Defendant’s Exhibit No. 28] Charge Document
#4 accordingly reflected a higher cost estimation for Travis Thompson’s emails than Charge
Document #3.
CONCLUSIONS OF LAW
Applicable Law and Analysis.
1.

While USF is required to comply with Chapter 119, Florida Statutes, it also has a

legal duty to redact any exempt portions of public records before they are released. See Morris
Publ'g Grp., LLCv. State ofFla., 154 So. 3d 528, 533 (Fla. 1st DCA 2015); Fla. Agencyfor Health
Care Admin, v. Zuckerman Spaeder, LLP, 221 So. 3d 1260 (Fla. 1st DCA 2017).
2.

There are several categories of information that are exempt from public disclosure

in a Chapter 119, Florida Statutes, public records requests, including: “[s]ocial security numbers
held by an agency are confidential;” “[b]ank account numbers and debit, charge, and credit card
numbers held by an agency;” and clinical records. See Florida Statutes § 119.071(5)(a)(5), §
119.071(5)(b), and § 394.4615(1). Furthermore, an exemption under the Chapter 119 exists for
Page 13 of19

Petition App. 27
student educational records, which provides, in relevant part: "[a] public postsecondary
educational institution may not reiease_a_student,s «ducatton records wthout4he-written-consexitof the student to any individual... except in accordance withand as permitted by the FERPA.” §
1006.52(2), Fla. Stat. (2015)
3.

"Florida has long required those who seek [public] records to defray the

extraordinary costs associated with their requests. ".M ofCty. Comm'rs ofHighlands Cty. v. Colby,
976 So. 2d 31, 35 (Fla. 2d DCA 2008). Indeed, section 119.07(4)(e), Florida Statutes, provides
as follows:
If the nature or volume of public records requested to be inspected or copied
pursuant to this subsection is such as to require extensive use of information
technology resources or extensive clerical or supervisory assistance by personnel
of the agency involved, or both, the agency may charge, in addition to the actual
cost of duplication, a special service charge, which shall be reasonable and shall be
based on the cost incurred for such extensive use of information technology
resources or the labor cost of the personnel providing the service that is actually
incurred by the agency or attributable to the agency for the clerical and supervisory
assistance required, or both.
§ 119.07(4)(e), Fla. Stat.
4.

Furthermore, where a service charge is warranted, an agency, such as USF, is

authorized to require payment before producing the records. See Morris Publ'g, 154 So. 3d at 534;
Wootton v. Cook, 590 So. 2d 1039,1040 (Fla. 1st DCA 1991); Colby, 976 So. 2d at 37.
5.

Chapter 119, Florida Statutes, likewise expressly allows custodians to withhold

documents until the permitted fee is tendered by the requestor. Specifically, section 119.07(4),
Florida Statutes, provides, in relevant part: “The custodian of public records shall furnish a copy
Page 14 of 19

Petition App. 28
or a certified copy of the record upon payment ofthe fee prescribed by law.” § 119.07(4), Fla. Stat.
(emphasis added). Florida courts have roled-that-“iTjequirifig-an-advanee-deposit-4s-pr4ident-giventhe legislature's determination that taxpayers should not shoulder the entire expense of responding
to an extensive request for public records.” See Fla. Agencyfor Health Care Admin, v. Zuckerman
Spaeder, LLP, 221 So. 3d at 1263. Moreover, a person who has requested, but has failed to pay
for the cost of production is not entitled to mandamus relief on a public records request. See
Lozman v. City of Riviera Beach, 995 SO. 2d 1027 (Fla. 4th DCA 2008).
6.

DeBose’s August 12, 2015, PRR, August 16, 2015, PRR, and August 31, 2015,

PRR seek voluminous documents that necessitate the use of extensive IT resources and/or clerical
support. “Information technology resources” means “data processing, hardware and software
services, communications, supplies, personnel, facility, resources, maintenance, and training.”
§ 119.011(9), Fla. Stat. A local government’s formula for calculating its special service charge
based on its determination that it will take more than 15 minutes to locate, review for confidential
information, copy, and refile the requested material has been approved and upheld in Florida. See
Florida Institutional Legal Servs., Inc. v. Fla. Dept, of Corrections, 579 So. 2d 267 (Fla. 1st DCA
1991), rev. denied, 592 So. 2d 680 (Fla. 1991) (court upheld hearing officer's order rejecting
inmates' challenge to the Department of Corrections' rule defining "extensive" for purposes of
special service charge to mean it would require more than 15 minutes to locate, review, copy, and
refile requested material). Specifically, in Florida Institutional Legal Servs., Inc. v. Fla. Dept.
of Corr., 579 So. 2d 267 (Fla. 1st DCA 1991), rev. denied, 592 So. 2d 680 (Fla. 1991), the court
stated that "[t]he essence of the appellant's argument before this court was that DOC was
improperly charging appellant for the DOC’s review for and excision of information in the
inmate files which DOC deems confidential." 579 So. 2d at 268. The court ruled that the
special service charge could be imposed for work if the volume of records and the number of
Page 15 of 19

Petition App. 29
potential exemptions make review and redaction of the records a time-consuming task. Here,

nearly 35,000 emails, and, given her former position as the USF’s Registrar, it is likely that many
of those emails include exempt information that USF is required, by federal and Florida state laws,
to protect.
7.

USF clearly has a duty to redact public records under both federal and state laws,

and Chapter 119, Florida Statutes, permits USF to charge a special service fee when the review of
such documents require extensive IT and clerical review, as is the case here. Courts additionally
have "recognized a records custodian's duty to redact exempted portions of public records before
they are released." Fla. Agency for Healthcare Admin, v. Zuckerman Spaeder, LLP, 221 So. 3d at
1264 ("Further, decisions of this Court and the language of § 119.07(f), Florida Statutes, dictate
that Zuckerman should be required to pay for the cost of searching, review, and redaction of
exempted information prior to production") (emphasis added).
8.

As to reasonableness of hourly rates for reviewing documents, $35.00 per hour has

been found by at least one Florida court to be a reasonable rate for the “redaction of exempt
material when special expertise is required for redaction.” Lang v. Reedy Creek Improvement
Dist., Case No. CJ-5546 (Orange Cty. Cir. Ct. 1995). Here, USF charged DeBose a considerably
lower hourly rate of $19.73. In fact, USF has not included Mohn’s benefits in its hourly rate
calculation, despite the fact that, in calculating the special service charge for responding to
extensive public records requests, agencies may include the cost of benefits in the labor calculation.
See Colby, 976 So. 2d at 37 (“[w]e approve the County’s formula that includes both an employee’s
salary and his or her benefits when calculating the labor costs to be included in the special service
charge authorized by that statute”).

Page 16 of 19

Petition App. 30
9.

In considering counsel’s arguments and submissions, it appears to the Court that the
■en-USPs-public-

records review and production policies and procedures and the manner in which USF has applied these
policies and procedures to her requests. [10/09/18 Evidentiary Hearing Transcript, Solis 58:1-2] For
instance, DeBose complained of the inefficient manner in which USF handled her requests by going
through IT, rather than by reaching out to each ofthe individual custodians and requesting them to perform
their own searches; criticized USF for failing to use certain redaction software which, in her own opinion
(as she failed to present any expert opinion testimony on this issue), would have expedited the review
process thereby reducing the cost ofMohn’s manual review and redaction time; challenged USF’s manual
review and redaction procedure maintaining (without any evidentiary support) that it was unlikely that
confidential or exempt information would be included in emails thereby making a thorough manual
review unnecessary and the cost for same unreasonable; and argued that she, even after having left the
employment of USF, should have been allowed to “preview” her emails to reduce or eliminate Mohn’s
review and redaction time claimed to be necessary by USF.
10.

These arguments are similar to the types of arguments made by the petitioner in Morris

Publ’g Grp., LLC v. State of Fla., 154 So. 3d 528 (Fla. 1st DCA 2015). The issue before the court in
Morris, was whether the application of a public records review policy to the facts of the case amounted to
an unlawful delay and denial of access. 154 So. 3d at 533. The Morris court observed that this
“application” theory previously had been recognized by the First District Court of Appeal in Johnson v.
Jaris, 74 So. 3d 168,171 (Fla. 1st DCA 2011), and its “inquiry centers on whether the application of the
policy resulted in an unjustified delay that amounted to an unlawful refusal to comply with chapter 119.”
Id. In Morris, the petitioner argued that the respondent’s public records review policy was “combative,
inefficient, unduly expensive, and prolonged, which made it virtually impossible” to get access to the
requested documents in a reasonable time. Ultimately, the First District Court of Appeal agreed with the
Page 17 of 19

Petition App. 31
trial court that the respondent’s public records review policy was facially reasonable and ruled that the
respondent hadno-legalduly-luinakeitspublicTeview-policies-rnore-eeonomieaily-offiGient-and-faster-fQrthe petitioner. Id. at 535.
11.

It likewise appears that DeBose is contending that USF’s application of its public records

review policies and procedures to the facts in this case is creating unreasonably high charges for the
documents requested and these unreasonably high charges are tantamount to a denial of access. As did
the court in Morris, this Court too declines, in the absence of clear legislative intent or case law requiring
/

USF to be more efficient in the manner in which it reviews its public records, to conclude that USF has a
duty to do so. No evidence was presented that USF has abused its policies and procedures or has been
arbitrary in their application. USF has adequately explained its charges and presented competent,
substantial evidence to support the number of emails identified as being responsive to each of DeBose’s
PRR’s at issue in this case. Absent a clear duty, the Court concludes that USF’s review policies and
procedures are reasonable in their application to the facts of this case.
Summary ofConclusions
12.

Based on the competent substantial evidence presented in this case, the Court concludes

as follows:
a.

USF’s policies and procedures regarding die manner in which it uses IT to

perform searches for public records and it manually reviews public records for exemptions and
manually redacts exempt information are both facially reasonable and reasonable in their
application to the facts in this case;
b.

USF has exercised these policies and procedures consistently and uniformly and

has handled DeBose’s PRR’s at issue in the same manner as it has handled others;
c.

the manner in which USF determines whether a search will require extensive use

of IT resources, file retrieval, queries, etc. is reasonable;
Page 18 of 19

r
;

Petition App. 32
d.

r

S'

the manner in which USF determines whether a search will require extensive
l^vj

e.

the number of emails reflected in each of the charge documents at issue - Charge

Document #1, Charge Document #2, Charge Document #3, and Charge Document #4 - is
reasonable;
f.

the manner in which USF calculates the IT cost for a public records request is

reasonable and the IT costs reflected in Charge Document #1, Charge Document #2, Charge
Document #3, and Charge Document #4 are reasonable;
g-

the manner in which USF calculates the labor cost involved for a public records

request is reasonable and the labor costs reflected in Charge Document #1, Charge Document #2,
Charge Document #3, and Charge Document #4 are reasonable; and
h.

the total estimated costs ofduplication, processing, labor, and production reflected

in Charge Document #1, Charge Document #2, Charge Document #3, and Charge Document #4
are reasonable.
13.

Accordingly, for the reasons articulated above, DeBose’s Second Amended Writ is

DENIED, in part, as to DeBose’s public records requests numbers five through 14, and 21 and otherwise
identified in this Order as the August 12,2015, PRR; the August 16,2015, PRR; and the August 31,2015,
PRR.
DONE AND ORDERED on

m
ggELIZABETH G. RICE
CIRCUIT JUDGE
Electronically conformed copies furnished via JAWS to:
-Angela DeBose
-Richard McCrea, Esq. and Cayla M. Page, Esq.
Page 19 of 19

INSTRUMENT#: 2015255759, BK: 23381 PG: 601 PGS: 601 - 602 06/30/2015 at
04:21:17 PM,
DEPUTY CLERK:TJORDAN Pat Frank,Clerk of
Hillsborough County
Appendix F

IN THE CIRCUIT COURT OF THE THIRTEENTH JUDICIAL CIRCUIT
IN AND FOR HILLSBOROUGH COUNTY, FLORIDA
GENERAL CIVIL DIVISION
ANGELA DEBOSE,
Petitioner,
CASE NO.: 15-CA-5663
v.
DIVISION: A
USF BOARD OF TRUSTEES, USF
ACADEMIC AFFAIRS OF USF,
STUDENT SUCCESS OF USF, and
PAUL DOSAL,
Respondents.

C

^ Sj. %
& %

%€

ALTERNATIVE WRIT OF MANDAMUS

THIS MATTER is before die Court on Petitioner, ANGELA DEBOSE’s, P&it^n

r

Extraordinary Writ of Mandamus, filed June 22, 201S, in which Petitioner seeks a writ of
mandamus to compel Respondents to provide access to public records. Mandamus may lie
“where public officials or agencies may be coerced to perform ministerial duties that they have a
clear legal duty to perform.” Town ofManalapan v. Redder, 674 So. 2d 789,790 (Fla. 4th DCA
1996). “A duty or act is defined as ministerial when there is no room fix’ the exercise of
discretion, and the performance being required is directed by law.” Id When a party petitions
for mandamus, they “must establish a clear legal right to performance of the act requested, an
indisputable legal duty, and no adequate remedy at law.” Radford v. Brock, 914 So. 2d 1066,
1067 (Fla. 2d DCA 2005) (quoting Smith v. State, 696 So. 2d 814,815 (Fla. 2d DCA 1997)). “If
the petition is facially sufficient, the court must issue an alternative writ of mandamus requiring
the respondent to show cause why the writ should not be issued.” Id Upon review of the
Petition, the Court finds that it is facially sufficient.

■I. ■j ■.

1 of 2

9

%

Bk 23381 £>g 602

Petition App. 35

It is therefore ORDERED and ADJUDGED that Respondents shall respond in writing
WITHIN FIFTEEN (15) DAYS of the date of this Older and SHOW CAUSE, if any, why the
Petition should not be granted, and serve same on Petitioner. Upon receipt of said response,
Petitioner shall properly notice a hearing on this matter on a date and at a time mutually
agreeable to all parties by contacting the undersigned’s judicial assistant
\ •,

Florida, this

Done AND ORDERED, in Chambers in Tampa, Hillsboro

day of June, 2015.
*RYL T1
suit Coufl
Conies Provided to:
Angela W. DeBose
1107 W. Kirby Street
Tampa, Florida 33604
Richard C. McCrea, Jr.
Greenberg Traurig, PA
625 E. Twiggs Street Suite 100
Tampa, Florida 33602
USF Office of the General Counsel
4202 E. Fowler Avenue, CGS 301
Tampa, Florida 33620

' i>V-' Vi \*<

2 of 2

IAS,

Additional material
from this filing is
available in the
Clerk's Office.

